No. 19-158

 

 

In THE
Supreme Court of the United States

Dr. MARCUS TURNER, SR., RUSSELL Moork, JR., AND
BEULAH COMMUNITY IMPROVEMENT CoRP.,

Petitioners,
Vv.

ALVA C. HINES, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the District of Columbia Court of Appeals

BRIEF OF BISHOP KENNETH SHELTON AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,554 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
